September 2007
Report No. AUD-07-015


DSC’s Examination Assessment of
Financial Institutions’ Compliance
Management Systems




            AUDIT REPORT
                                                                                     Report No. AUD-07-015
                                                                                             September 2007


                                        DSC’s Examination Assessment of Financial
                                        Institutions’ Compliance Management Systems
                                        Results of Audit
Background and Purpose of Audit
                                        Our review of seven sampled institutions showed that the examiners
                                        had adequately assessed each financial institution’s CMS as part of
Compliance examinations are the
primary supervisory tool the FDIC       the related compliance examination. Specifically, the examiners
uses to determine whether a             (1) completed a preliminary risk assessment that addressed each
financial institution is meeting its    institution’s CMS to assist in risk-scoping the examination and
responsibility to comply with the       (2) documented support for examination conclusions regarding the
requirements of federal consumer        CMS. Additionally, the Reports of Examination (ROE) for the seven
protection laws and associated          institutions addressed each CMS element, as shown in the table
regulations.                            below, and included a summary statement and conclusion on the
                                        quality of each financial institution’s compliance management
In the mid-1990s, the FDIC              practices for each element. Also, where significant violations were
introduced risk-scoping in the          identified, the examiner tied the cause of the violation to one of the
compliance examination process.
                                        CMS elements in the ROE.
In June 2003, as part of the
continued focus on risk-scoping, the
FDIC revised the compliance             Examiner Assessment of CMS Elements
examination process to increase                                     The ROE Included a Conclusion on
attention on an institution's                 CMS Elements                     Each Element
compliance management system                                        1     2    3     4    5     6  7
(CMS). Although not required by          Board and Management       9     9    9     9    9    9   9
law or regulation, the FDIC has          Oversight
stated it expects the institutions it                               9     9    9     9    9    9   9
                                         Compliance Program
supervises to have an effective CMS
designed to aid compliance with          Compliance Audit           9     9    9     9    9    9   9
consumer protection laws and             Key
regulations. Three interdependent        9A conclusion was in the ROE, and there was documented
elements comprise a CMS: a board         evidence of examination work performed.
of directors and management             Source: OIG analysis of the ROEs.
oversight; a compliance program
(including policies and procedures,     Recommendations and Management Response
training, monitoring, and consumer
complaint response); and periodic       Based on the FDIC’s establishment of examination guidance related
compliance audits.                      to assessing an institution’s CMS during a compliance examination
                                        and evidence of examiner implementation of the guidance, we
The audit objective was to determine
                                        concluded our audit. The report does not make any
whether the FDIC’s Division of
Supervision and Consumer                recommendations. DSC management commented that it was
Protection (DSC) is adequately          committed to assuring that financial institutions implement effective
assessing institutions’ CMSs during     consumer protection safeguards by maintaining strong CMSs.
compliance examinations.

To view full report, go to
www.fdicig.ov/2007reports.asp
                           TABLE OF CONTENTS


BACKGROUND                                                        1

  FDIC Institution and Examination Guidance for a CMS             2

  Elements of an Effective CMS                                    3

RESULTS OF AUDIT                                                  4

  Examiner Review of CMS Implementation                           4

  Conclusion                                                      5

CORPORATION COMMENTS                                              5

APPENDIX I: OBJECTIVE, SCOPE, AND METHODOLOGY                     6

APPENDIX II: FINANCIAL INSTITUTION LETTERS AND                   10
RD MEMORANDA

APPENDIX III: CORPORATION COMMENTS                               11

TABLE 1: Interdependent Elements of an Effective CMS              3
TABLE 2: Examiner Assessment of CMS Elements                      4

FIGURE: ROE Excerpt                                               5

ACRONYMS

CMS            Compliance Management System
DSC            Division of Supervision and Consumer Protection
FIL            Financial Institution Letter
RD             Regional Director
ROE            Report of Examination
RPSM           Risk Profile and Scope Memorandum
Federal Deposit Insurance Corporation                                                             Office of Audits
3501 Fairfax Drive, Arlington, VA 22226                                              Office of Inspector General


DATE:                                     September 26, 2007

MEMORANDUM TO:                            Sandra L. Thompson, Director
                                          Division of Supervision and Consumer Protection


                                          /Signed/
FROM:                                     Russell A. Rau
                                          Assistant Inspector General for Audits

SUBJECT:                                  DSC’s Examination Assessment of Financial Institutions’
                                          Compliance Management Systems
                                          (Report No. AUD-07-015)


This report presents the results of our audit of the FDIC’s Division of Supervision and
Consumer Protection’s (DSC) examination assessment of financial institutions’
compliance management systems (CMS). Although not required by law or regulation,
the FDIC has stated that it expects each FDIC-
supervised financial institution to have an effective CMS A CMS is how an institution:
adapted to its unique business strategy and designed to       9 learns about its compliance
aid compliance with consumer protection laws and              responsibilities,
regulations. The objective of the audit was to determine      9 ensures that employees
                                                              understand these responsibilities,
whether DSC is adequately assessing financial                 9 ensures that requirements are
institutions’ CMSs during compliance examinations.            incorporated into business
                                                                        processes,
                                                                        9 reviews operations to ensure
We conducted this performance audit in accordance with                  responsibilities are carried out
generally accepted government auditing standards.                       and requirements are met, and
Appendix I of this report discusses our audit objective,                9 takes corrective action and
                                                                        updates materials as necessary.
scope, and methodology in detail. We concluded our
fieldwork after a review of examination documentation1     Source: The FDIC’s Compliance
and discussions with examiners and field office            Examination Handbook.
supervisors for a limited sample of seven compliance
examinations and the performance of related audit procedures.


BACKGROUND

Financial institutions are required to comply with federal consumer protection laws and
regulations. Noncompliance can result in harm to consumers as well as monetary
penalties, litigation, and formal enforcement actions against the institution. The

1
 The examination documentation included: (1) the Report of Examination (ROE), (2) the Risk Profile and
Scope Memorandum (RPSM), (3) examiner work papers, and (4) DSC’s System of Uniform Reporting of
Compliance and Community Reinvestment Act Examinations (SOURCE).
responsibility for ensuring an institution is in compliance rests with the board of directors
and management of the institution.

As the federal supervisor of more than 5,000 financial institutions, the FDIC conducts
compliance examinations for each FDIC-supervised financial institution every 12 to
36 months, depending on the prior compliance examination rating and the asset size of
the institution. These examinations are the primary tool the FDIC uses to determine
whether a financial institution is meeting its responsibilities to comply with consumer
protection requirements. The FDIC also promotes compliance with the requirements of
federal consumer protection laws and regulations through outreach programs, which
include attendance at bankers’ forums and conferences, and various supervisory
activities.

FDIC Institution and Examination Guidance for a CMS

In the mid-1990s, the FDIC introduced risk-scoping into the compliance examination
process. The goal of risk-scoping was for examiners to focus attention on regulatory
areas that posed the greatest risk to the institution and the greatest potential harm to
customers. In 2003, the FDIC built upon that approach by initiating top-down, risk-
focused compliance examinations that increased attention on a financial institution’s
CMS in order to emphasize a financial institution’s responsibility to ensure it complies
with consumer protection laws and regulations.

The FDIC notified the financial institutions it supervises of its revised compliance
examination approach through Financial Institution Letter (FIL) 52-2003, Revised
Compliance Examination Process; and FIL-10-2007, Compliance Examination
Handbook, which replaced the compliance examination procedures. The FDIC also
issued Regional Directors (RD) Memorandum 2005-035, Revised Compliance
Examination Procedures, dated August 18, 2005; and RD Memorandum 2006-034,
Compliance Examination Handbook, dated October 24, 2006, to transmit the revised
compliance examination procedures to its examination staff. The Compliance
Examination Handbook outlines procedures to guide the examiner through an assessment
of an institution’s CMS and assists the examiner in identifying specific areas of weakness
for further analysis.




                                              2
Elements of an Effective CMS

According to the FDIC’s Compliance Examination Handbook, the three interdependent
elements shown in Table 1 commonly comprise an effective CMS. The handbook states
that when the three elements are strong and working together, an institution has an
increased likelihood of being successful at managing its compliance responsibilities,
including ensuring that it complies with federal consumer protection laws, regulations,
and guidelines.

Table 1: Interdependent Elements of an Effective CMS
   Element                                                    Description
Board of        The board of directors of a financial institution is ultimately responsible for developing and
Directors and   administering a CMS that ensures compliance with federal consumer protection laws and
Management      regulations. To a great degree, the success of an institution’s CMS is founded on the actions taken
Oversight       by its board and senior management. Key actions that a board and management may take to
                demonstrate their commitment to maintaining an effective CMS and to set a positive climate for
                compliance include:
                •    demonstrating clear and unequivocal expectations about compliance,
                •    adopting clear policy statements,
                •    appointing a compliance officer with authority and accountability,
                •    allocating resources to compliance functions commensurate with the level and complexity of
                     the institution’s operations,
                •    conducting periodic compliance audits, and
                •    providing for recurrent reports by the compliance officer to the board.

Compliance      A financial institution should generally establish a formal, written compliance program. A
Program         compliance program includes the following components:
                •    policies and procedures,
                •    training,
                •    monitoring, and
                •    consumer complaint response.

                A well-planned, implemented, and maintained compliance program will prevent or reduce
                regulatory violations and provide cost-efficiencies and is a sound business step. It is expected that
                no two compliance programs will be the same and that a program will be dictated by numerous
                considerations, including:
                •    institution size, number of branches, and organizational structure;
                •    business strategy of the institution (e.g., community bank versus regional; or retail versus
                     wholesale bank);
                •    types of products;
                •    location of the institution—its main office and branches; and
                •    other influences, such as whether the institution is involved in interstate or international
                     banking.

Compliance      A compliance audit is an independent review of an institution’s compliance with consumer
Audit           protection laws and regulations and adherence to internal policies and procedures. The audit
                (1) helps management ensure ongoing compliance and identify compliance risk conditions and
                (2) complements the institution’s internal monitoring system. The board of directors of the
                institution should determine the scope of an audit and the frequency with which audits are
                conducted. The scope and frequency of an audit should consider such factors as:
                •     organization and staffing of the compliance function,
                •     complexity of products offered, and
                •     outsourcing of functions to third-party service providers.

Source: Compliance Examination Handbook.



                                                         3
RESULTS OF AUDIT

Our review of compliance examinations for seven sampled institutions showed that the
examiners had adequately assessed each financial institution’s CMS. Specifically, the
examiners completed a preliminary risk assessment that addressed each institution’s CMS
to assist in risk-scoping the examination and documented support for examination
conclusions regarding the CMS. Additionally, the ROEs for the seven institutions
addressed each CMS element and included a summary statement and conclusion on the
quality of the financial institution’s compliance management practices for each element
as shown in Table 2 below. Also, where significant violations were identified, the
examiner tied the cause of the violation to one of the CMS elements in the ROE.

Table 2: Examiner Assessment of CMS Elements
                                 The ROE Included a Conclusion on
          CMS Elements                    Each Element
                                  1   2    3    4    5    6    7
 Board and Management Oversight 9     9   9    9     9   9     9
 Compliance Program              9    9   9    9     9   9     9
 Compliance Audit                9    9   9    9     9   9     9
  Key
  9A conclusion was in the ROE, and there was documented evidence of
  examination work performed.
 Source: OIG analysis of ROEs for the seven institutions.



Examiner Review of CMS Implementation

According to the Compliance Examination Handbook, the examiner must assess the financial
institution’s CMS as it applies to key operational areas and evaluate the risk of non-compliance
with applicable laws and regulations. For each examination we reviewed, the examiner
documented the preliminary risk assessment of the institution’s CMS in the RPSM. In our
review of documentation of examiner fieldwork, we saw varying levels of evidence
documenting the examiner’s assessment of a financial institution’s CMS. For example, in
reviewing the board and management oversight element, we saw examiner interview notes
about board meetings or copies of meeting minutes in the examiner’s documentation. In
reviewing examiner documentation for the compliance program element, we saw, in some
instances, copies of compliance policies and procedures annotated with the examiner’s
comments or a chart summarizing the examiner’s review of a consumer complaint response. In
reviewing examiner documentation for the compliance audit element, we found the examiners
had documented the review of the audit committee meeting minutes. We also saw an instance
where the examiner had documented audit memoranda, audit plans, and a summary status of
audit exceptions. Although examination documentation varied, in each case, we were able to
determine that work had been performed in support of the examiner’s conclusions in the ROE.

The Compliance Examination Handbook states that the ROE must assess the strengths of
the institution’s CMS, clearly identify the most critical deficiencies and related causes,
and aid the institution’s board of directors and management in developing an action plan
                                                   4
to address the findings. The ROEs for the seven institutions discussed the overall quality
of the financial institutions’ CMSs and the examiners’ conclusions for each CMS
element, beginning with a summary statement about the quality of the financial
institution’s compliance management practices (strong, adequate, or weak) for each
element.

Also, in accordance with the Compliance Examination Handbook, where significant violations
were identified, the examiner tied the cause of the violation to an element of CMS in the ROE.
For example, one institution had a Truth in Lending Act violation resulting from the failure to
include the life-of-loan flood determination fees in the finance charge, resulting in an
understated finance charge. The ROE attributed the violation to insufficient training and the
bank staff’s lack of awareness of the disclosure requirement and made recommendations to the
board to improve the CMS in this area. The following excerpt from one of the ROEs we
reviewed provides an example of how examiners concluded on each of the three CMS
elements.

ROE Excerpt

     COMPLIANCE MANAGEMENT SYSTEM

     Board of Directors and Management Oversight

     Board and management oversight is considered strong. Management at all levels is knowledgeable of
     consumer compliance laws and regulations and is committed to an effective compliance program. The
     Board provides sufficient resources and authority to management and compliance personnel. The
     Board has formally appointed … as the bank’s compliance officer. Board members receive training
     quarterly from … to keep current with new laws and regulations. Audit and monitoring findings, as
     well as recommendations, are presented to the Board during the quarterly compliance meetings. In
     addition, policies, including compliance, are reviewed and approved by the Board annually.


Source: OIG review of examination documentation.



Conclusion

Based on the FDIC’s establishment of examination guidance related to assessing an institution’s
CMS during a compliance examination and evidence of examiner implementation of the
guidance, we concluded our audit. This report does not make any recommendations.


CORPORATION COMMENTS

On September 19, 2007, the Director, DSC, provided a written response to a draft of this report.
DSC’s response is presented in its entirety as Appendix III of this report. DSC stated that it is
committed to assuring that financial institutions implement effective consumer protection
safeguards by maintaining strong CMSs and will continue to emphasize this important area of
risk through its supervisory programs.

                                                    5
                                                                                                  APPENDIX I


                        OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

The audit objective was to determine whether DSC is adequately assessing institutions’
CMSs during compliance examinations. We conducted this performance audit from May
through August 2007 in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides
a reasonable basis for our observations.

Scope and Methodology

The scope of the audit focused on reviewing policies, procedures, and practices for the
examiner’s assessment of a financial institution’s CMS during a compliance examination.
We concluded our fieldwork after a review of the examination documentation for a
limited sample of compliance examinations for seven financial institutions.

We reviewed the FDIC’s Compliance Examination Handbook, which includes guidance
for the examiner’s assessment of a financial institution’s CMS, and performed the
following:

•   Obtained an understanding of:
    • the CMS expectations for financial institutions,
    • the CMS examination procedures,
    • the level of examiner assessment of the CMS,
    • how the CMS assessment results are used by the examiners to risk-scope the
       compliance examination and rate the financial institution, and
    • the impact of the CMS assessment on the overall results of the compliance
       examination process.

•   Met with and interviewed DSC officials and staff in headquarters and in the three
    DSC field offices.

•   Reviewed laws and regulations and other criteria pertaining to CMS, including:
    • FILs,
    • RD Memoranda, and
    • guidance on the Federal Financial Institutions Examination Council2 Web site.

•   Reviewed the Formal and Informal Action Procedures Manual, dated December
    2005, covering administrative procedures affecting the processing and monitoring of
2
  The Council is a formal interagency body empowered to prescribe uniform principles, standards, and report forms for
the federal examination of financial institutions by the Board of Governors of the Federal Reserve System, FDIC,
National Credit Union Administration, Office of the Comptroller of the Currency, and Office of Thrift Supervision and
to make recommendations to promote uniformity in the supervision of financial institutions.
                                                          6
                                                                                           APPENDIX I

    corrective actions against financial institutions, including addressing violations of
    laws and other weaknesses in financial institutions.

•   Confirmed with OIG Counsel that there are no statutory or regulatory requirements
    for financial institutions to have a CMS.

•   Selected a limited, non-statistical sample of compliance examinations for review.3 As
    of March 20, 2007, there were 5,238 active banks identified in DSC’s online
    resources. We pulled a random sample of 45 banks that had compliance
    examinations completed from January 1, 2006 through March 20, 2007. From that
    random sample, we selected seven examinations for review based on the size of the
    institutions, the compliance ratings, and location.

•   Reviewed examiner documentation for the selected compliance examinations in
    DSC’s Holyoke, South Boston, and Minneapolis field offices.

•   Reviewed congressional correspondence relating to improving federal consumer
    protection efforts.

•   Reviewed a Risk Analysis Center presentation, dated January 2007, on the New
    Compliance Examination Handbook.

•   Identified and reviewed applicable DSC Internal Control and Review Section reports,
    including Internal Control and Review-Field Territory Reviews: Potential Strong
    Practices, dated January 2006.

•   Reviewed the Office of Enterprise Risk Management 2006 Accountability Listing for
    DSC compliance and consumer protection.

•   Identified CMS examination procedures for the Office of Thrift Supervision, Office
    of the Comptroller of the Currency, and the Board of Governors of the Federal
    Reserve System.

•   Reviewed FDIC Supervisory Insights journals from summer 2004 through winter
    2006, for information on compliance examinations and CMS.




3
  The results of a non-statistical sample cannot be projected to the intended population by standard
statistical methods.
                                                       7
                                                                                         APPENDIX I


    •   Reviewed and evaluated the following performance measurement planning
        documents:
        - FDIC Strategic Plan (2005-2010)
        - FDIC Annual Performance Plan for 2006 and 2007
        - FDIC Corporate Performance Objectives for both 2006 and 2007
        - FDIC 2006 Annual Report

Internal Controls

We gained an understanding of relevant internal controls by reviewing the: (1) DSC
Internal Control and Review Section’s internal review reports; (2) FDIC policies and
procedures, such as FILs and RD Memoranda related to compliance examinations and the
Relationship Manager Program;4 (3) Compliance Examination Handbook; and
(4) examination procedures for assessing institution performance related to a CMS. In
addition, we interviewed DSC individuals to obtain an understanding of how examiners
use examination guidance to assess institutions’ CMSs during compliance examinations,
including how compliance examiners and the field office supervisors coordinate the
performance of work with risk management examiners.

Reliance on Computer-based Data

Our audit objective did not require that we assess the reliability of computer-based data.
We obtained certain data from SOURCE to identify the universe of banks that had a
compliance examination completed from January 1, 2006 through March 20, 2007.
However, for purposes of our audit, we did not rely on computer-based data to support
our observations or conclusions.

Compliance With Laws and Regulations

In conducting the audit, we confirmed with the FDIC’s OIG Counsel that there were no
federal statutory or regulatory requirements for financial institutions to have a CMS. We
did identify various consumer protection laws and regulations applicable to financial
institutions.

Government Performance and Results Act

The Government Performance and Results Act of 1993 directs federal agencies to
develop a strategic plan and annual performance plan to help improve federal program
effectiveness. We reviewed the FDIC’s Strategic Plan for 2005-2010 and the FDIC
Annual Performance Plan for 2006 and 2007. We determined that the FDIC has a
strategic goal and objective related to ensuring consumers’ rights are protected and that
FDIC-supervised institutions comply with consumer protection and fair lending laws.

4
  The Relationship Manager Program objectives include: improving communication, increasing flexibility
for risk-focused supervision, and providing a comprehensive ROE that includes all supervisory ratings and
addresses material findings in all areas.

                                                    8
                                                                               APPENDIX I

The FDIC also has a 2007 performance goal to determine the need for changes in current
FDIC practices for following up on significant violations of consumer protection laws
and regulations identified during examinations of banks. We reviewed the FDIC’s
Corporate Performance Objectives for 2006 and 2007 and the FDIC 2006 Annual
Report. We determined that there were no specific strategic objectives or goals directly
related to DSC’s examination assessment of a financial institution’s CMS.

Fraud and Illegal Acts

We did not develop specific procedures to detect fraud and illegal acts because they were
not considered material to the audit objective. However, throughout our review, we were
sensitive to the potential for acts of fraud and illegal acts, and none came to our attention.

Prior Audit Coverage

The OIG has conducted two prior audits related to compliance examinations. We
discussed the audits with the OIG Auditors-in-Charge and reviewed their work papers
and the Status of DSC Corrective Action reports for the prior audits. Additionally, we
performed a comparative analysis of the results of the prior audit reports, listed below, to
our audit objective, scope, and methodology.

Audit Report No. 05-038, Audit of DSC’s Risk-Focused Compliance Examination
Process, issued September 2005. The objective of this audit was to determine whether
DSC’s risk-focused compliance examination program resulted in examinations that were
adequately planned and effective in assessing financial institution compliance with
consumer protection laws and regulations. We recommended that the Director, DSC,
clarify and reinforce requirements that examiners adequately document the scope of work
performed, including transaction testing and spot checks of the reliability of the
institutions’ compliance review functions, during the on-site portions of compliance
examinations.

Audit Report No. 06-024, Audit of DSC’s Supervisory Actions Taken for Compliance
Violations, issued September 2006. The objective of this audit was to determine
whether DSC adequately addressed the violations and deficiencies reported in
compliance examinations to ensure that FDIC-supervised institutions took appropriate
corrective action. We recommended that the Director, DSC, strengthen guidance related
to the monitoring and follow-up processes for compliance violations by revising: (1) the
Compliance Examination Procedures to require follow-up between examinations on
repeat, significant compliance violations and program deficiencies; (2) the Formal and
Informal Action Procedures Manual to require consideration of supervisory actions when
any institution’s corrective action on repeat, significant violations is not timely or when
repeat, significant violations are a recurring examination finding; and (3) DSC’s
performance goals to focus more broadly on institutions with repeat, significant
violations.



                                              9
                                                                       APPENDIX II

         FINANCIAL INSTITUTION LETTERS AND RD MEMORANDA


    Financial Institution Letters                   Description/Summary

•   FIL-10-2007, Compliance         The Compliance Examination Handbook replaced the
    Examination Handbook,           Compliance Examination Manual in June 2006 and
    January 30, 2007                includes guidance for examiner assessment of an
                                    institution’s CMS.

•   FIL-52-2003, Revised            The FDIC’s revisions to its process for examining
    Compliance Examination          FDIC-supervised depository institutions to determine
    Process, June 20, 2003          their compliance with consumer protection laws and
                                    regulations. The revised process focuses increased
                                    attention on an institution’s CMS.


      DSC Regional Directors
          Memoranda

•   2006-034, Compliance            Transmitted the total revision and replacement of the
    Examination Handbook,           Compliance Examination Manual. The handbook
    October 24, 2006                captures outstanding examination policies and
                                    procedures in effect as of June 30, 2006.

•   2005-035, Revised Compliance    Transmitted revised compliance examination
    Examination Procedures,         procedures for on-site reviews beginning on or after
    August 18, 2005                 January 1, 2006.




                                         10
                       APPENDIX III

CORPORATION COMMENTS




         11
